     Department of Homeland Security





            FEMA Public Assistance Grant Funds 

           Awarded to City of Bogalusa, Louisiana 





DD-12-11                                              May 2012

May 11, 2012
                              Table 1. Disaster-Specific Information
                                      Amount          Large         Small                         Federal
                                                             2
                        Disaster     Awarded        Projects       Projects                         Cost
        Disaster        Number       (Millions)     Awarded       Awarded                          Share

        Hurricane
        Katrina            1603                    $4.27            10                40            100%
        Hurricane
        Gustav             1786                    $0.12            1                 2             90%

        Total                                      $4.39            11                42

We conducted this performance audit September 2011 and March 2012 pursuant to the
Inspector General Act of 1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. We conducted this
audit according to the statutes, regulations, and FEMA policies and guidelines in effect at the
time of the disaster.

We interviewed FEMA, GOHSEP, and City officials; reviewed judgmentally selected project
costs (generally based on dollar value); and performed other procedures considered necessary
to accomplish our objective. We did not assess the adequacy of the City’s internal controls
applicable to grant activities because it was not necessary to accomplish our audit objective.
We did, however, gain an understanding of the City’s method of accounting for disaster-
related costs and its procurement policies and procedures.


                                               BACKGROUND

The City of Bogalusa is located in Washington Parish in southeast Louisiana and encompasses
9.9 square miles. The City’s water supply is from a deep-well system. Hurricane Katrina
caused major structural, electrical, and mechanical damages to the City’s water system,
including the control system and the communication system between the control system and
outside components. In 2008, Hurricane Gustav caused little property damage, but the City
incurred costs for emergency protective measures to ensure the safety of its citizens, including
filling and distributing sandbags and assisting with evacuations.




2
 Federal regulations in effect at the time of the disasters set the large project threshold at $55,500 for Hurricane
Katrina and $60,900 for Hurricane Gustav.



                                                          2

                                   RESULTS OF AUDIT 


The City accounted for FEMA grant funds on a project-by-project basis, as required.
However, the City did not obtain and maintain insurance for certain repaired facilities;
claimed ineligible costs for labor; and did not complete one small project. As a result, we
question $583,312 of ineligible costs claimed for Hurricane Katrina.

In addition, FEMA should deobligate and put to better use $194,509 in Federal funds that
exceeded the actual amounts the City incurred and claimed for Hurricanes Katrina and
Gustav; and GOHSEP should complete reviews of all large projects awarded for Hurricanes
Katrina and Gustav and submit an accounting of eligible costs to FEMA.

Finding A: Insufficient Insurance Coverage

The City did not obtain and maintain sufficient insurance required as a condition for receiving
Federal disaster assistance. As a result, the City may not have adequate insurance coverage
the next time disaster strikes. Section 311 of the Robert T. Stafford Disaster Relief and
Emergency Assistance Act, Public Law 93-288, as amended, 42 U.S.C. §5121, et seq. requires
recipients of disaster assistance to obtain and maintain such types and extent of insurance “as
may be reasonably available, adequate, and necessary, to protect against future loss to [any
property to be replaced, restored, repaired, or constructed with such assistance].” Further, the
FEMA Public Assistance Guide (FEMA 322, October 1999, p. 97) states that (1) as a
condition for receiving public assistance for a facility, an applicant must obtain and maintain
insurance to cover that facility for the hazard that caused the damage; and (2) such coverage
must, at a minimum, be in the amount of the estimated eligible project costs for that structure
before any reduction.

The City received funding for 12 Katrina projects totaling $514,280 for the cost of repairs
resulting from wind damage. The City did not have insurance for the damaged items at the
time of the disaster, and has not obtained and maintained insurance since. Therefore, FEMA
should disallow these costs unless the City obtains and maintains insurance coverage for the
damaged items in the minimum amount of $514,280.

We discussed this issue with City officials on November 10, 2011, and they responded that
they had not been previously informed that the funding would have to be repaid if they did not
obtain insurance. However, we determined that the City had been previously informed of
insurance requirements because the City maintained folders for each of its projects that
included the project worksheet. The project worksheets clearly explained the insurance
requirements. Figure 1 is an excerpt from the project worksheet for Project 4620, which is 1
of the 12 projects we questioned.




                                               3

Figure 1. Excerpt From Project Worksheet for Project 4620




Finding B: Ineligible Force Account Labor

The City claimed $24,249 for ineligible overtime paid to its mayor, department heads, and
supervisors who did not normally receive overtime. FEMA Public Assistance Policy Digest,
FEMA-321 (October 2001) states that pay will be determined according to predisaster written
policies. FEMA Response and Recovery Directorate Policy 9525.7 (July 20, 2000) states in
section 7.D. that straight time and overtime will be determined according to the applicant’s
written policies and labor union contracts in effect prior to the disaster.

City officials held a staff meeting on August 26, 2005, in preparation for Hurricane Katrina,
and approved the payment of overtime for supervisory personnel during emergencies such as
Katrina. Because the City did not have a written policy to pay overtime for supervisory
personnel before the onset of the impending disaster, overtime pay for supervisory personnel
totaling $24,249 is ineligible.




                                              4

Finding C: Uncompleted Small Project

The City received $44,783 for a small project, but did not complete the work as required.
City officials explained that they did not complete the original project, ballpark repairs,
because the location was deemed unsafe because of its proximity to City streets. FEMA
approved the City’s request for an alternate project for lighting a field at the City sports
complex. However, City officials explained that they could not complete the alternate project
because the area was found to be a natural wetland that could not be disturbed for
underground wiring, and they could not obtain approval for aboveground wiring. City
officials agreed with this finding, but said that they are still trying to find another alternate
project to replace the original one. According to 44 CFR 206.205(a), Payment of Claims –
Small Projects, failure to complete a small project may require the repayment of Federal
funds. Therefore, FEMA should disallow $44,783 as ineligible, unless the City requests and
FEMA approves funding for an appropriate alternate project.

Finding D: Unused Federal Funds

GOHSEP did not perform timely closeouts of projects the City completed. As a result,
$195,800 of Federal funds obligated for Hurricanes Katrina and Gustav remained unused and
obligated. The amount FEMA estimated and approved for seven large Hurricane Katrina
projects exceeded the amounts the City claimed for completing the projects by $182,889 (see
exhibit A). In addition, FEMA estimated and approved $67,954 for a Hurricane Gustav large
project, but the City completed the work for $55,043, or $12,911 less than the approved
amount (see exhibit B). Therefore, FEMA should deobligate $195,800 of unused Federal
funds ($182,889 from the seven Hurricane Katrina projects and $12,911 from the Hurricane
Gustav project).

City officials said they had completed all large projects and claimed all costs for Hurricane
Katrina projects by February 2011 and for Hurricane Gustav projects by September 2010.
According to 44 CFR 206.205(a) and (b)(1), grantees are required to make final payment on
small projects when they are approved and are required to submit an accounting of eligible
costs for each large project “as soon as practicable after the subgrantee has completed the
approved work and requested payment.”

We consider 6 months after the subgrantee has completed the approved work and requested
payment a reasonable amount of time for the grantee to complete its reviews of costs claimed
and submit an accounting of eligible costs to FEMA. Without timely closeouts, Federal funds
remain obligated as a liability against FEMA’s appropriated funds and can limit FEMA’s
ability to authorize other disaster assistance projects. Therefore, FEMA should require
GOHSEP to submit closeout documentation for both disasters so that FEMA can perform
final closeouts of the projects and put unused Federal funds to better use.




                                                5

Other Matters

GOHSEP overpaid the City a total of $242,150 on seven Katrina projects because FEMA took
actions that reduced approved funding after GOHSEP had paid the City for costs claimed on
these projects, as shown in table 2.
    •	 For Projects 185, 500, 501, 534, and 1703, the overpayments occurred because FEMA
        deobligated the projects subsequent to GOHSEP paying the City.
    •	 For Projects 2732 and 4582, the overpayments occurred because FEMA applied actual
        insurance proceeds subsequent to GOHSEP paying the City.

These payments did not reduce authorized FEMA funding, and we do not question these
costs. However, GOHSEP should collect the overpayments totaling $242,150 so it can fund
other projects.

                        Table 2. GOHSEP Overpayments—Katrina
       Project         Amount
       Number          Overpaid                     Reason for Overpayment

          185             $124,263 Deobligated – ineligible costs

          500               21,875 Deobligated – scope of work and costs not accurate

          501               30,583 Deobligated – repairs not required

          534                6,113 Deobligated – repair costs were inaccurate

         1703                5,400 Deobligated – repair costs were inaccurate

         2732               13,899 Applied actual insurance proceeds

         4582               40,017 Applied actual insurance proceeds

         Total            $242,150

                                  RECOMMENDATIONS

We recommend that the Acting Regional Administrator, FEMA Region VI:

Recommendation #1: Require the City to obtain and maintain insurance to cover the full
amount of eligible disaster assistance provided or disallow $514,280 as ineligible (finding A).

Recommendation #2: Disallow $24,249 of ineligible force account labor costs claimed
(finding B).

Recommendation #3: Disallow $44,783 of ineligible costs claimed for an uncompleted
small project unless FEMA approves a request by the City to fund an appropriate alternate
project (finding C).



                                               6

Recommendation #4: Deobligate $182,889 of unused Federal funds awarded for Hurricane
Katrina and put those funds to better use (finding D).

Recommendation #5: Deobligate $12,911 ($11,620 Federal share) of unused Federal funds
awarded for Hurricane Gustav and put those funds to better use (finding D).

Recommendation #6: Require GOHSEP to complete reviews of all large projects awarded to
the City for Hurricanes Katrina and Gustav and submit an accounting of eligible costs to
FEMA (finding D).


           DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with City officials during our audit and included their
comments in this report, as appropriate. We also provided a draft report in advance to FEMA,
GOHSEP, and City officials and discussed it at exit conferences held separately with FEMA
and GOHSEP officials on March 6, 2012, and with City officials on March 8, 2012. FEMA
generally agreed with our findings and recommendations.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Significant contributors to this report were Tonda Hadley, Judy Martinez, Susan Stipe, and
Rodney Johnson.

Should you have questions, please call me at (202) 254-4100 or your staff may contact Tonda
Hadley at (214) 436-5200.


cc:    	Administrator, FEMA
       Director, Risk Management and Compliance, FEMA Office of Chief Financial Officer
       Executive Director, FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Region VI
       Audit Liaison, FEMA (Job Code G-11-059)
       Audit Liaison, DHS




                                              7

                                                                                                           EXHIBIT A
                                        Schedule of Projects Audited 

                                  August 27, 2005, Through August 15, 2011 

                                         City of Bogalusa, Louisiana 

                                   FEMA Disaster Number 1603-DR-LA 


                                                                     Ineligible
                                                                       Force
                                                   Insufficient                                                     Unused
                                                                      Account
            Gross                                   Insurance                     Uncompleted         Total         Federal
                                                                       Labor
Project    Award        Insurance     Net Award     Coverage                      Small Project      Amount          Funds
                                                                    (Finding B)
Number     Amount       Reductions     Amount      (Finding A)                     (Finding C)      Questioned    (Finding D)

     185   $2,263,210     $      0    $2,263,210       $       0        $24,249        $       0       $ 24,249       $       0

     524      35,000                     35,000

     533       3,060                      3,060

     542      39,819                     39,819            38,819                                       38,819

     545      18,290                     18,290            18,281                                       18,281

     793      23,470                     23,470

     794      87,800                     87,800

     888      44,783                     44,783                                            44,783       44,783

     891      26,040                     26,040

    1080       3,320                      3,320

    1142      16,463                     16,463

    1159     120,500                    120,500                                                                           27,500

    1253       4,817                      4,817

    1263       4,480                      4,480

    1266        6,299                     6,299             6,299                                        6,299

    1270      14,400                     14,400

    1273     402,990     (378,000)       24,990

    1274      14,569                     14,569            14,569                                       14,569

    1544     187,229     (182,800)        4,429

    1766      46,171                     46,171

    1995      13,924                     13,924

    2141      52,754                     52,754            52,754                                       52,754

    2144      77,383                     77,383            28,867                                       28,867            48,516

    2229      51,748                     51,748            51,748                                       51,748

    2404      16,786                     16,786

    2524     222,491       (82,435)     140,056                                                                           35,919

    2548       2,375                      2,375

    2609      20,665                     20,665

    2732      14,932       (13,899)       1,033

    2759        7,843                     7,843             7,843                                        7,843

    2782      27,961                     27,961




                                                             8

                                                                                                           EXHIBIT A
                                    Schedule of Projects Audited (Continued)
                                    August 27, 2005, Through August 15, 2011
                                          City of Bogalusa, Louisiana 

                                     FEMA Disaster Number 1603-DR-LA 


                                                                       Ineligible
                                                     Insufficient        Force                                     Unused
              Gross                                   Insurance         Account     Uncompleted       Total        Federal
Project      Award        Insurance     Net Award     Coverage           Labor      Small Project    Amount         Funds
Number       Amount       Reductions     Amount      (Finding A )     (Finding B)    (Finding C)    Questioned   (Finding D)

      2947       1,050                       1,050

      2961        3,149                      3,149

      2999      95,721       (85,160)      10,561

      4195      92,519                     92,519                                                                     25,037

      4197        7,121                      7,121

      4200        4,657                      4,657

      4207        3,842                      3,842

      4367     123,749     (119,344)         4,405

      4582      55,534       (49,422)        6,112

      4620      66,580                     66,580          65,717                                       65,717           863

      5287      53,738                     53,738          53,738                                       53,738

      5681      29,338                     29,338

      5891        4,174                      4,174

      5920     101,545                    101,545                                                                     10,688

      6416     442,955                    442,955

     16097     191,546                    191,546         157,180                                      157,180        34,366

     16358        9,156                      9,156

     17224      18,465                     18,465          18,465                                       18,465

     17788        9,150                      9,150                0             0               0            0             0


      SUB
    TOTAL    $5,185,561   ($911,060)    $4,274,501      $514,280          $24,249         $44,783     $583,312      $182,889

     20883      11,441       (11,441)           0                 0             0               0            0             0



TOTALS       $5,197,002   $(922,501)    $4,274,501      $514,280          $24,249         $44,783     $583,312      $182,889




3
  Katrina Project 2088 is not counted in the universe of 50 projects because it has a zero balance. It is included in
exhibit A to show the insurance reduction.



                                                              9
                                                                 EXHIBIT B
                     Schedule of Projects Audited 

               August 31, 2008, Through August 15, 2011 

                      City of Bogalusa, Louisiana 

                FEMA Disaster Number 1786-DR-LA 




                                                         Federal Share of
   Project                   Unused Federal Funds      Unused Federal Funds
   Number    Award Amount        (Finding D)               (Finding D)

    00873         $  3,462                  $     0                 $     0
    02597           67,954                   12,911                  11,620
    02657           52,812                        0                       0
Totals            $124,228                  $12,911                 $11,620




                                10

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
